                                            48552                               Federal Register / Vol. 71, No. 161 / Monday, August 21, 2006 / Notices

                                            DEPARTMENT OF HEALTH AND                                        will be effective for services provided              qualifying law.1 In order for a State to
                                            HUMAN SERVICES                                                  on/or after January 1, 2006 to the extent            qualify for this incentive, the State law
                                                                                                            consistent with payment authorities                  must meet certain enumerated
                                            Indian Health Service                                           including the applicable Medicaid State              requirements, as determined by the
                                                                                                            plan.                                                Inspector General of the Department of
                                            Reimbursement Rates for Calendar                                                                                     Health and Human Services in
                                            Year 2006                                                         Dated: June 27, 2006.
                                                                                                                                                                 consultation with the Attorney General.
                                                                                                            Charles W. Grim,
                                            AGENCY:     Indian Health Service, HHS.                                                                                 Medicaid, authorized under Title XIX
                                                                                                            Assistant Surgeon General, Director, Indian          of the Act, 42 U.S.C. 1396–1396v, is a
                                            ACTION:     Notice.                                             Health Service.
                                                                                                                                                                 joint Federal and State program that
                                                                                                            [FR Doc. E6–13785 Filed 8–18–06; 8:45 am]            pays for medical and other related
                                            SUMMARY: Notice is given that the
                                            Director of Indian Health Service (IHS),
                                                                                                            BILLING CODE 4165–16–P                               benefits provided to needy beneficiaries.
                                            under the authority of sections 321(a)                                                                               States that participate in Medicaid
                                            and 322(b) of the Public Health Service                                                                              administer their own programs within
                                                                                                            DEPARTMENT OF HEALTH AND                             broad Federal guidelines and receive
                                            Act (42 U.S.C. 248 and 249(b)), Public                          HUMAN SERVICES
                                            Law 83–568 (42 U.S.C. 2001 (a)), and                                                                                 matching funds from the Federal
                                            the Indian Health Care Improvement                              Office of Inspector General                          government. The Federal share
                                            Act (25 U.S.C. 1601 et seq.), has                                                                                    generally varies between 50 percent and
                                            approved the following rates for                                Publication of OIG’s Guidelines for                  83 percent, depending on the State per
                                            inpatient and outpatient medical care                           Evaluating State False Claims Acts                   capita income.
                                            provided by IHS facilities for Calendar                                                                                 False or fraudulent claims presented
                                            Year 2006 for Medicare and Medicaid                             AGENCY: Office of Inspector General                  to State Medicaid programs by
                                            beneficiaries and beneficiaries of other                        (OIG), HHS.                                          participating providers and others may
                                            Federal programs. The Medicare Part A                           ACTION: Notice.                                      give rise to civil liability under the
                                            inpatient rates are excluded from the                                                                                Federal False Claims Act (FCA), 31
                                            table below as they are paid based on                           SUMMARY: Under section 1909 of the                   U.S.C. 3729–3733. Under the FCA, any
                                            the prospective payment system. Since                           Social Security Act (the Act), 42 U.S.C.             person who knowingly submits a false
                                            the inpatient rates set forth below do not                      1396h, the Inspector General of the                  or fraudulent claim to a State Medicaid
                                            include all physician services and                              Department of Health and Human                       program is liable to the Federal
                                            practitioner services, additional                               Services is required to determine, in                Government for three times the amount
                                            payment may be available to the extent                          consultation with the Attorney General,              of the Federal Government’s damages
                                            that those services meet applicable                             whether a State has in effect a law                  plus penalties of $5,000 to $10,000 for
                                            requirements. Public Law 106–554,                               relating to false or fraudulent claims               each false or fraudulent claim. Any
                                            section 432, dated December 21, 2000,                           submitted to a State Medicaid program                recovery of damages to the State
                                            authorized IHS facilities to file Medicare                      that meets certain enumerated                        Medicaid program will be shared with
                                            Part B claims with the carrier for                              requirements. If the Inspector General               the State in the same proportion as the
                                            payment for physician and certain other                         determines that a State law meets these              State’s share of the costs of the Medicaid
                                            practitioner services provided on or                            requirements, the State medical                      program. For example, if a State’s
                                            after July 1, 2001.                                             assistance percentage, with respect to               Medicaid share is 40 percent, then the
                                                                                                            any amounts recovered under a State                  State would be entitled to receive 40
                                                                                             Calendar       action brought under such a law, shall               percent of the damages and the Federal
                                                                                             year 2006      be increased by 10 percentage points.                Government would retain 60 percent of
                                                                                                            This notice sets forth the Inspector                 the damages.
                                            Inpatient Hospital Per Diem Rate                                General’s guidelines for evaluating                     Under the qui tam provisions of the
                                              (Excludes Physician/Practi-                                                                                        FCA, private persons (known as
                                              tioner Services):
                                                                                                            whether a State law meets the
                                                                                                            requirements of section 1909 of the Act.             relators) may file lawsuits in Federal
                                              Lower 48 States ......................            $1,660
                                                                                                                                                                 court against individuals and/or entities
                                              Alaska .....................................       2,131      DATES: Effective Date: These guidelines
                                            Outpatient Per Visit Rate (Ex-                                                                                       that defraud the Federal government by
                                                                                                            are effective on August 21, 2006.                    filing false or fraudulent Medicaid
                                              cluding Medicare):
                                              Lower 48 States ......................                  242   FOR FURTHER INFORMATION CONTACT:                     claims. The Department of Justice (DOJ)
                                              Alaska .....................................            406   Roderick T. Chen, Office of Counsel to               has an opportunity to investigate the
                                            Outpatient Per Visit Rate (Medi-                                the Inspector General, (202) 401–4134,               relator’s allegations, and DOJ may
                                              care):                                                        or Joel Schaer, Office of External Affairs,          intervene and take over the prosecution
                                              Lower 48 States ......................                  193   (202) 619–0089.                                      of the action. If DOJ chooses not to
                                              Alaska .....................................            348                                                        intervene, the relator has the right to
                                                                                                            SUPPLEMENTARY INFORMATION:
                                            Medicare Part B Inpatient Ancil-
                                                                                                                                                                 conduct the action. In general, with
                                              lary Per Diem Rate:                                           I. Background                                        respect to recoveries of Federal damages
                                              Lower 48 States ......................                  340
                                              Alaska .....................................            625      Section 1909 of the Act, added by                 and penalties in cases in which DOJ has
                                                                                                            section 6031 of the Deficit Reduction                intervened, the relator is entitled to
                                            Outpatient Surgery Rate (Medicare)                              Act of 2005 (Pub. L. 109–171), creates a             between 15 and 25 percent of the
                                                                                                            financial incentive for States to enact              recovery of Federal damages and
                                               Established Medicare rates for                                                                                    penalties depending upon the extent to
                                            freestanding Ambulatory Surgery                                 legislation that establishes liability to
                                                                                                                                                                 which the relator substantially
hsrobinson on PROD1PC72 with NOTICES




                                            Centers.                                                        the State for individuals or entities that
                                                                                                            submit false or fraudulent claims to the             contributed to the case. In general, the
                                            Effective Date for Calendar Year 2006                           State Medicaid program. This incentive               relator is entitled to between 25 and 30
                                            Rates                                                           takes the form of an increase in the                   1 The increase results from a 10-percentage point
                                              Consistent with previous annual rate                          State’s share of any amounts recovered               decrease in the Federal share of any recovery from
                                            revisions, the Calendar Year 2006 rates                         from a State action brought under a                  a State action brought under a qualifying law.



                                       VerDate Aug<31>2005       17:53 Aug 18, 2006      Jkt 208001   PO 00000   Frm 00024   Fmt 4703   Sfmt 4703   E:\FR\FM\21AUN1.SGM   21AUN1
                                                                         Federal Register / Vol. 71, No. 161 / Monday, August 21, 2006 / Notices                                            48553

                                            percent of any recoveries of Federal                    or fraudulent claims as those described               provisions. OIG is not requiring any
                                            damages and penalties if DOJ has not                    in 31 U.S.C. 3730–3732;                               specific language to be included in State
                                            intervened in the case. Because the FCA                    3. The law must contain a                          false claims acts. Rather, the guidelines
                                            applies only to false claims against the                requirement for filing an action under                reflect the provisions relevant to OIG’s
                                            Federal Government, the relator is not                  seal for 60 days with review by the State             review of whether a State law meets the
                                            entitled to a share of the State portion                Attorney General; and                                 requirements of section 1909(b) of the
                                            of a Medicaid recovery under the FCA.                      4. The law must contain a civil                    Act.
                                               Many States have enacted their own                   penalty that is not less than the amount
                                            false claims acts that establish civil                  of the civil penalty authorized under 31              A. Liability for False or Fraudulent
                                            liability to the State for individuals and              U.S.C. 3729.                                          Claims
                                            entities that submit false or fraudulent                   A State that, as of January 1, 2007, has              Under section 1909(b)(1) of the Act,
                                            claims to the State Medicaid program.                   a law in effect that meets the                        the State law must establish liability to
                                            Generally, these laws include qui tam                   enumerated requirements shall be                      the State for false or fraudulent claims
                                            provisions that reward relators with a                  considered in compliance with such                    described in 31 U.S.C. 3729, with
                                            share of the State portion of recoveries                requirements so long as the law                       respect to any expenditure described in
                                            in cases of Medicaid fraud. Currently, if               continues to meet such requirements.                  section 1903(a) of the Act. Section
                                            a State obtains a recovery as the result                   The effective date of section 1909 of              1903(a) of the Act describes
                                            of a State action relating to false or                  the Act is January 1, 2007. Thus, a State             expenditures related to State Medicaid
                                            fraudulent claims submitted to its                      with a law in effect that meets the                   plans, including all expenditures for
                                            Medicaid program, it must share the                     enumerated requirements will qualify                  medical assistance under a State
                                            damages recovered with the Federal                      for a 10 percentage point increase in its             Medicaid plan. When evaluating a State
                                            Government in the same proportion as                    share of any amounts recovered from a                 law to determine whether it meets the
                                            the Federal Government’s share in the                   State action brought under the law if the             requirements of section 1909(b)(1) of the
                                            cost of the State Medicaid program. For                 recovery is received on or after January              Act, OIG will consider whether the law
                                            example, if a State’s Medicaid share is                 1, 2007. A State may enact a law before,              provides for the following:
                                            40 percent, then the State would retain                 on, or after January 1, 2007.                            1. Liability to the State for false or
                                            40 percent of any damages recovered                     Furthermore, the action that gives rise to            fraudulent claims with respect to
                                            from an individual or entity that has                   the recovery may be commenced before,                 Medicaid program expenditures,
                                            defrauded Medicaid, and the Federal                     on, or after January 1, 2007. As long as              including:
                                            Government would be entitled to the                     the State’s law meets the enumerated                     • Knowingly presenting, or causing to
                                            remaining 60 percent of damages.                        requirements on or after January 1,                   be presented, a false or fraudulent claim
                                                                                                    2007, and the recovery from the action                for payment or approval to the Medicaid
                                            II. Section 1909 of the Social Security                 brought under the qualifying law is                   program;
                                            Act                                                     received by the State on or after January                • Knowingly making, using, or
                                               In order to encourage States to pursue               1, 2007, the State will qualify for a 10              causing to be made or used, a false
                                            Medicaid fraud, Congress added a new                    percent increase in its share of the                  record or statement to get a false or
                                            section 1909 to the Act, effective                      amount recovered.                                     fraudulent claim paid or approved by
                                            January 1, 2007. Under this section, if a                  It is important to note that section               the Medicaid program;
                                            State has in effect a State false claims                1909 of the Act does not require a State                 • Conspiring to defraud the Medicaid
                                            act that meets certain enumerated                       to have in effect a false claims act or to            program by getting a false or fraudulent
                                            requirements, the Federal medical                       enact a false claims act that meets these             claim allowed or paid;
                                            assistance percentage will be decreased                 minimum requirements. States may                         • Knowingly making, using, or
                                            by 10 percentage points with respect to                 choose not to enact false claims acts, or             causing to be made or used, a false
                                            any amount recovered under a State                      may choose to enact false claims acts                 record or statement to conceal, avoid, or
                                            action brought under such a law.                        that do not meet the enumerated                       decrease an obligation to pay or transmit
                                            Therefore, the State’s share of any                     requirements. However, a State that                   money or property to the Medicaid
                                            recovery in an action under such a law                  does not have such a law in effect will               program.
                                            will be increased by 10 percentage                      not qualify for the 10 percentage point                  2. Definitions for the terms
                                            points. For example, if a State has a                   increase in its share of any recoveries               ‘‘knowing’’ and ‘‘knowingly’’ meaning
                                            qualifying State false claims act and the               from an action brought under such a                   that a person, with respect to
                                            State’s Medicaid share is 50 percent, the               law.                                                  information: (a) Has actual knowledge of
                                            State would be entitled to 60 percent of                                                                      the information; (b) acts in deliberate
                                                                                                    III. OIG Guidelines for Evaluating State
                                            the amount of the recovery, while the                                                                         ignorance of the truth or falsity of the
                                                                                                    False Claims Acts
                                            Federal Government would receive the                                                                          information; or (c) acts in reckless
                                            remaining 40 percent.                                      Section 1909(b) of the Act sets forth              disregard of the truth or falsity of the
                                               Section 1909(b) of the Act requires the              four requirements that a State law must               information. In addition, no proof of
                                            Inspector General to determine, in                      meet if the State is to qualify for the 10            specific intent to defraud should be
                                            consultation with the Attorney General,                 percentage point increase in any State                required.
                                            whether a State has in effect a false                   Medicaid share recovered under the
                                                                                                    law. The Inspector General is required                B. Qui Tam Provisions
                                            claims act that meets the following
                                            requirements:                                           to determine, in consultation with the                   Under section 1909(b)(2) of the Act, a
                                               1. The law must establish liability to               Attorney General, whether a State law                 State law must contain provisions that
                                            the State for false or fraudulent claims                meets these requirements. After                       are at least as effective in rewarding and
hsrobinson on PROD1PC72 with NOTICES




                                            described in 31 U.S.C. 3729 with respect                reviewing section 1909 of the Act and                 facilitating qui tam actions for false or
                                            to any expenditure described in section                 consulting with DOJ, OIG has developed                fraudulent claims as those described in
                                            1903(a) of the Act;                                     guidelines to use in evaluating whether               31 U.S.C. 3730–3732. When evaluating
                                               2. The law must contain provisions                   a State law meets the enumerated                      a State law to determine whether it
                                            that are at least as effective in rewarding             requirements. It is important to note that            meets the requirements of section
                                            and facilitating qui tam actions for false              these guidelines are not model statutory              1909(b)(2) of the Act, OIG will consider


                                       VerDate Aug<31>2005   17:53 Aug 18, 2006   Jkt 208001   PO 00000   Frm 00025   Fmt 4703   Sfmt 4703   E:\FR\FM\21AUN1.SGM   21AUN1
                                            48554                        Federal Register / Vol. 71, No. 161 / Monday, August 21, 2006 / Notices

                                            whether the law provides for the                           8. A provision that provides a cause                has a law in effect that meets the
                                            following:                                              of action for relators who suffer                      enumerated requirements shall be
                                               1. A provision that authorizes a                     retribution from employers for                         deemed in compliance with such
                                            person (relator) to bring a civil action for            whistleblower activities related to the                requirements for so long as the law
                                            a violation of the State false claims act               State false claims act.                                continues to meet such requirements.
                                            for the person and for the State, which                    OIG is required to consider whether                   With the publication of these
                                            will be brought in the name of the State.               the State law is at least as effective in              guidelines, OIG will accept requests for
                                               2. A provision that requires a copy of               rewarding and facilitating qui tam                     review of State laws to determine if they
                                            complaint and written disclosure of                     actions when compared to the                           meet the requirements of section
                                            material evidence and information to be                 provisions at 31 U.S.C. 3730–3732. State               1909(b) of the Act. In order to request
                                            served on the State Attorney General in                 false claims acts may include                          OIG review of a State law, the State
                                            accordance with State Rules of Civil                    procedural rights, reductions in relator               Attorney General’s office should submit
                                            Procedure.                                              awards, jurisdictional bars, and other                 a complete copy of the State law, or any
                                               3. A provision that provides that                    qui tam provisions similar to those                    other relevant information, to the
                                            when a relator brings a qui tam action,                 found in the FCA that do not conflict                  following address: Office of Inspector
                                            no person other than the State may                      with the requirements of section                       General, Department of Health and
                                            intervene or bring a related action based               1909(b)(2) of the Act. However, if such                Human Services, Cohen Building, Mail
                                            on the facts underlying the pending                     provisions are more restrictive than the               Stop 5527, 330 Independence Avenue,
                                            action.                                                 provisions in the FCA, OIG may                         SW., Washington, DC 20201, Attention:
                                               4. Provisions that set forth rights of               determine that a State law is not as                   Roderick Chen, Office of Counsel to the
                                            parties to qui tam actions, including:                  effective in rewarding or facilitating qui             Inspector General.
                                               • If the State proceeds with the                     tam actions. OIG will make such                          Submissions by telecopier, facsimile,
                                            action, the State has primary                           determinations on a case-by-case basis                 or other electronic media will not be
                                            responsibility in the action, but the                   and in consultation with DOJ.                          accepted. OIG will review the State law
                                            relator shall have the right to continue                                                                       under these guidelines and in
                                            as a party to the action; and                           C. Seal Provisions
                                                                                                                                                           consultation with DOJ, and inform the
                                               • If the State elects not to proceed                   Under section 1909(b)(3) of the Act, a               State Attorney General’s office in
                                            with the action, the relator may conduct                State law must contain a requirement                   writing whether the State law meets the
                                            the action but the State may intervene                  for filing an action under seal for 60                 requirements of section 1909(b) of the
                                            at a later date upon a showing of good                  days with review by the State Attorney                 Act.
                                            cause.                                                  General. When evaluating whether a
                                               5. Provisions that reward a relator                                                                           Dated: August 16, 2006.
                                                                                                    State law meets the requirements of
                                            with a share of the proceeds of the                                                                            Daniel R. Levinson,
                                                                                                    section 1909(b)(3) of the Act, OIG will
                                            action or settlement of the claim,                      consider whether the law provides a                    Inspector General.
                                            including:                                              provision that requires the complaint to               [FR Doc. E6–13749 Filed 8–18–06; 8:45 am]
                                               • If the State proceeds with an action
                                                                                                    be filed in camera and to remain under                 BILLING CODE 4150–04–P
                                            brought by the qui tam relator, the
                                                                                                    seal for at least 60 days. In addition, OIG
                                            relator receives at least 15 percent of the
                                                                                                    will consider whether the State law’s
                                            proceeds of the action or settlement of                                                                        DEPARTMENT OF THE INTERIOR
                                                                                                    seal provisions operate in a way that
                                            the claim, and may receive a higher
                                                                                                    conflict with the Federal seal in a
                                            percentage depending on the relator’s                                                                          Fish and Wildlife Service
                                                                                                    pendant FCA case.
                                            contribution to the prosecution of the
                                            action;                                                 D. Civil Penalty Provisions                            Recovery Plan for the Chittenango
                                               • If the State does not proceed with                   Under section 1909(b)(4) of the Act,                 Ovate Amber Snail
                                            an action, the relator receives at least 25             the State law must contain a civil
                                            percent of the proceeds of the action or                                                                       AGENCY:   Fish and Wildlife Service,
                                                                                                    penalty that is not less than the amount               Interior.
                                            settlement, and may receive a higher                    of the civil penalty authorized under 31
                                            percentage depending on the relator’s                                                                          ACTION: Notice of document availability:
                                                                                                    U.S.C. 3729. OIG will review a State law
                                            contribution to the prosecution of the                                                                         final revised recovery plan.
                                                                                                    to determine if these provisions include
                                            action; and                                             a provision that sets at least treble
                                               • The court is authorized to award                                                                          SUMMARY: We, the Fish and Wildlife
                                                                                                    damages (or double damages in                          Service (Service), announce availability
                                            the relator an amount for reasonable
                                                                                                    instances of timely self-disclosure and                of a final revised recovery plan for the
                                            expenses, including attorneys’ fees and
                                                                                                    full cooperation) and civil penalties at               endangered Chittenango ovate amber
                                            costs, to be awarded against the
                                                                                                    amounts of at least $5,000 to $10,000                  snail (Novisuccinea chittenangoensis).
                                            defendant.
                                                                                                    per false claim.2                                      The final plan incorporates comments
                                               6. A statute of limitations period not
                                            shorter than 6 years after the date of the              IV. OIG Procedures for Reviewing State                 received during the public and peer
                                            violation is committed, or 3 years after                False Claims Acts                                      review period and updates the
                                            the date when facts material to the right                                                                      objectives, criteria, and actions for
                                                                                                      As noted above, the effective date of                recovering this endangered species.
                                            of action are known or reasonably                       section 1909 of the Act is January 1,
                                            should have been known by the State                                                                            ADDRESSES: A copy of the revised plan
                                                                                                    2007. A State that, as of January 1, 2007,
                                            official charged with the responsibility                                                                       may be requested by contacting the Fish
                                            to act in the circumstances, whichever                                                                         and Wildlife Service’s New York Field
hsrobinson on PROD1PC72 with NOTICES




                                                                                                      2 DOJ is authorized to adjust the civil penalties
                                            occurs last.                                            under the FCA for inflation and has issued             Office (NYFO), 3817 Luker Road,
                                               7. A provision that establishes the                  regulations that raise the FCA penalties. See Public   Cortland, New York 13045. Copies will
                                            burden of proof, for each of the elements               Law 101–410, 104 Stat. 890 (Oct. 5, 1990); 28 CFR      also be available for downloading from
                                                                                                    85.3. However, the statutory provisions of the FCA
                                            of the cause of action including                        identify the range of civil penalties as $5,000 to
                                                                                                                                                           the NYFO’s Web site at http://
                                            damages, no greater than a                              $10,000, and OIG will review State laws based on       www.fws.gov/northeast/nyfo/es/
                                            preponderance of the evidence.                          those statutory provisions.                            recoveryplans.htm, and from the


                                       VerDate Aug<31>2005   17:53 Aug 18, 2006   Jkt 208001   PO 00000   Frm 00026   Fmt 4703   Sfmt 4703   E:\FR\FM\21AUN1.SGM   21AUN1
